February 19, 2021
Via ECF
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Chevron Corporation, et al., v. City of Oakland, et al., No. 20-1089
Motion to Extend Time to File Response to Petition for Writ of Certiorari
Dear Mr. Harris,
I am counsel of record for Respondents the People of the State of California,
acting by and through Oakland City Attorney Barbara J. Parker and San Francisco
City Attorney Dennis J. Herrera (the “People”), and for Respondents City of Oakland
and City and County of San Francisco in the above-captioned case. The petition for
certiorari in this matter was docketed on February 9, 2021. The response is currently
due on March 11, 2021. Pursuant to Rule 30.4, Respondents respectfully request that
the time for filing a response be extended by 60 days, to and including May 10, 2021.
This extension of time is requested due to the press of counsel’s litigation
commitments in other matters and the necessary time for review by public counsel
for each Respondent. The extension of time also would facilitate preparation of a
response that the undersigned counsel believes would be most helpful to the Court.
Counsel for Petitioners do not oppose this extension of time.
Respectfully submitted,
/s/ Victor M. Sher
Victor M. Sher
Sher Edling LLP
Counsel of Record for Respondents
People of the State of California, acting by and
through Oakland City Attorney Barbara J.
Parker and San Francisco City Attorney
Dennis J. Herrera, City of Oakland, and City
and County of San Francisco
cc: All Counsel of Record
100 Montgomery Street, Suite1410 − San Francisco, CA 94104

Office: (628) 231-2500 − sheredling.com

